(/~
~~¥~~~
 ~lf"'dia(;
                                              DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                                                 OFFICE OF AUDIT SERVICES
                                                                233 NORTH MICHIGAN AVENUE
                                                                  CHICAGO, ILLINOIS 60601
                                                                                                                    REGION  V
                                                                                                                    OFFICE OF
                                                                                                               INSPECTOR GENERAL


                                                                    December 1 0, 2008

              Report Number: A-05-08-00049


              Mr. Bar S. Maram
              Director
              Ilinois Department of  Healthcare and Family Services
              201 South Grand Avenue East, Third Floor
              Springfield, Ilinois 62763

              Dear Mr. Maram:

              Enclosed is the U.S. Deparment of               Health and Human Services (HHS), Office ofInspector
              General (GIG), final report entitled "Review of            Medicaid Credit Balances at Weiss Hospital as
              of February 29, 2008." We wil forward a copy of
                                                                           this report to the HHS action official noted on
              the following page for review and any action deemed necessary.

              The HHS action offcial wil make final determination as to actions taken on all matters reported.
              We request that you respond to this official within 30 days from the date of
                                                                                           this letter. Your
              response should present any comments or additional information that you believe may have a
              bearing on the final determination.

                                       the Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
              Pursuant to the principles of

          Public Law 104-231, OIG reports generally are made available to the public to the extent the
          information is not subject to exemptions in the Act (45 CFR par 5). Accordingly, this report
          wil be posted on the Internet at http://oig.hhs.gov.

          If you have any questions or comments about this report, please do not hesitate to call me, or
          contact Dave Markulin, Audit Manager, at (312) 353-1644 or through e-mail at
          David.MarkulinCfoig.hhs.gov. Please refer to report number A-05-08-00049 in all
          correspondence.

                                                                         Sincerely,



                                                                       7J~L/\
                                                                        Marc Gu~fson
                                                                        Regional Inspector General
                                                                         for Audit Services

          Enclosure
Page 2 - Mr. Bary S. Maram


Direct Reply to DDS Action Official:

Ms. Jackie Gamer
Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Ilinois 60601
Department of Health and Human Services
                             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF MEDICAID CREDIT
 BALCES AT WEISS HOSPITAL
    AS OF FEBRUARY 29, 2008




               ~ SERVICE's

                                  Daniel R. Levinson


       (/Ji
        "'-¡ ~
        ';4-
           ~IIVdJa
                                   Inspector General

                                    December 2008
                                    A -05-08-00049
                             Office of Inspector General
                                           http:// oig.hhs.gov



The mission of        the Offce ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity ofthe Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Offce of Audit Services

The Offce of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carring out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Offce of Evaluation and Inspections
The Offce of         Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
effciency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Offce of Investigations
The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of  01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Offce of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions wil make final determination on these matters.
                               EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program
provides medical assistance to low-income individuals and individuals with disabilities.
The Federal and State Governments jointly fund and administer the Medicaid program.
At the Federal level, the Centers for Medicare & Medicaid Services (CMS) administers
the program. Each State administers its Medicaid program in accordance with a CMS-
approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.
The Illinois Department of Healthcare and Family Services (the State agency) is
responsible for administering the Illinois Medical Assistance Program (Medicaid).

Credit balances generally occur when the reimbursement that a provider receives for
services provided to a Medicaid beneficiary exceeds the charges billed, such as when a
provider receives payments for the same service from the Medicaid program or another
third-party payer. In such cases, the provider should return the existing overpayment to
the Medicaid program, which is the payer of last resort.

Federal regulations at 42 CFR 433 subpart F, “Refunding the Federal Share of
Overpayments to Providers,” implements Section 1903(d)(2)(C) and (D) of the Act,
requiring States to adjust any outstanding credit balances within 60 days after notification
by a provider that a credit balance exists. The State agency does not have any regulations
in place requiring providers to refund Medicaid credit balances within a specific time
frame.

Louis A. Weiss Memorial Hospital (Weiss) is a 369 licensed-bed healthcare facility,
located in Chicago, Illinois. The State agency reimbursed Weiss approximately
$28 million for Medicaid services during calendar year 2007.

OBJECTIVE

Our objective was to determine whether the Medicaid credit balances recorded in Weiss’
accounting records for inpatient and outpatient services represented overpayments that it
should have returned to the Medicaid program.

SUMMARY OF FINDINGS

As of February 29, 2008, Weiss’s Medicaid credit balances included 29 overpayments
totaling $188,370 ($94,185 Federal share) that had not been returned to the Medicaid
program. For 14 of the 29 overpayments, the ages of the overpayments ranged from 366
to 1,199 days. Weiss acknowledged that the overpayments occurred and had not been
returned prior to the start of our audit because it did not comply with its policy for
resolving credit balances on a daily basis.




                                             i
We verified that Weiss refunded 27 of the 29 overpayments to the State agency as of
July 30, 2008.

RECOMMENDATIONS

We recommend that the State agency:

   •	   refund to the Federal Government the $94,185 paid to Weiss for Medicaid
        overpayments; and

   •	   work with Weiss to strengthen its procedures to ensure that credit balances are
        reviewed and overpayments are returned to the Medicaid program.

STATE AGENCY COMMENTS

In written comments to our draft report, the State agency indicated that it has adjusted 26
of the 29 claims related to the overpayments and will work with Weiss to finalize the
remaining 3 adjustments and strengthen its procedures to ensure that credit balances are
reviewed and overpayments are returned to the Medicaid program. The State agency’s
comments are included in their entirety as the Appendix.




                                             ii
                                           TABLE OF CONTENTS 

                                                                                                              Page 


INTRODUCTION..................................................................................................1


          BACKGROUND .........................................................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................1 

               Objective ..........................................................................................1       

               Scope………………………………………………………………1                                                                              

               Methodology……………………………………………………… 2                                                                          


FINDING AND RECOMMENDATIONS………………………………….......2


          FEDERAL MEDICAID REQUIREMENTS...............................................3                                


          OUTSTANDING CREDIT BALANCE ACCOUNTS CONTAINING 

           OVERPAYMENTS ..................................................................................3 


          RECOMMENDATIONS……………………………………….…………4                                                                         


          STATE AGENCY COMMENTS………………………………………….4 


APPENDIX

          STATE AGENCY COMMENTS




                                                            iii
                                   INTRODUCTION 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program
provides medical assistance to low-income individuals and individuals with disabilities.
The Federal and State Governments jointly fund and administer the Medicaid program.
At the Federal level, the Centers for Medicare & Medicaid Services (CMS) administers
the program. Each State administers its Medicaid program in accordance with a CMS-
approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.
The Illinois Department of Healthcare and Family Services (the State agency) is
responsible for administering the Illinois Medical Assistance Program (Medicaid).

Credit balances generally occur when the reimbursement that a provider receives for
services provided to a Medicaid beneficiary exceeds the charges billed, such as when a
provider receives payments for the same service from the Medicaid program or another
third-party payer. In such cases, the provider should return the existing overpayment to
the Medicaid program, which is the payer of last resort.

Federal regulations at 42 CFR 433 subpart F, “Refunding the Federal Share of
Overpayments to Providers,” implements Section 1903(d)(2)(C) and (D) of the Act,
requiring States to adjust any outstanding credit balances. Accordingly, the provider
must request an adjustment to the claim or refund the amount to the State agency.
Subsequently, the State agency must adjust the applicable claim or recover the amount of
the Medicaid overpayment.

Louis A. Weiss Memorial Hospital (Weiss) is a 369 licensed-bed healthcare facility,
located in Chicago, Illinois. The State agency reimbursed Weiss approximately
$28 million for Medicaid services during calendar year 2007.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid credit balances recorded in Weiss’
accounting records for inpatient and outpatient services represented overpayments that it
should have returned to the Medicaid program.

Scope

As of February 29, 2008, Weiss’ accounting records contained 71 credit balance accounts
totaling $253,531 with Medicaid listed as a payer. We determined that 29 of the 71
accounts included Medicaid overpayments. Our review of overpayments included 11
outpatient accounts totaling $1,635 and 18 inpatient accounts totaling $186,735. We
limited our review of internal controls to obtaining an understanding of the policies and



                                            1

procedures that Weiss used to review credit balances and report overpayments to the
Medicaid program and did not review its entire internal control structure. This
understanding was for the purpose of accomplishing our objective and not to provide
assurance of the internal control structure.

We performed fieldwork from April through June 2008 at Weiss’ facilities located in
Berwyn, Illinois.

Methodology

To accomplish our objective, we:

   • 	 researched and reviewed Federal and State requirements pertaining to Medicaid
       credit balances;

   • 	 identified and reconciled Weiss’ Medicaid credit balances to its accounting
       records as of February 29, 2008;

   •	   reconciled Weiss’ February 29, 2008 credit balance list to the accounts receivable
        records and reconciled the accounts receivable records to the trial balance;

   • 	 reviewed patient payment data, Medicaid claim forms and remittance advices,
       patient accounts receivable detail and additional supporting documentation for
       each credit balance account; and

   • 	 coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                       FINDING AND RECOMMENDATIONS

As of February 29, 2008, Weiss’ Medicaid credit balances included 29 overpayments
totaling $188,370 ($94,185 Federal share) that had not been returned to the Medicaid
program. For 14 of the 29 overpayments, the ages of the overpayments ranged from 366
to 1,199 days. Weiss acknowledged that the overpayments occurred and had not been
returned prior to the start of our audit because it did not comply with its policy for
resolving credit balances on a daily basis.




                                            2

FEDERAL MEDICAID REQUIREMENTS

Pursuant to 42 CFR 433 subpart F, “Refunding the Federal Share of Overpayments to
Providers,” which implements Section 1903(d)(2)(C) and (D) of the Act, States are
required to adjust any outstanding credit balances. The regulation is based on the
statutory requirements contained in the Omnibus Reconciliation Act of 1985 (Public Law
99-272), section 9512, which requires States to adjust any outstanding credit balances
within 60 days after notification by a provider that a credit balance exists.

In accordance with Federal regulations, the provider must request an adjustment or
refund the amount to the State agency after its identification. Subsequently, the State
agency must adjust the applicable claim or recover the amount of the Medicaid
overpayment within 60 days of notification. The State agency does not have any
regulations in place requiring providers to refund Medicaid credit balances within a
specific time frame.

OUTSTANDING CREDIT BALANCE ACCOUNTS CONTAINING
OVERPAYMENTS

For 29 credit balances, Weiss had not returned overpayments totaling $188,370 ($94,185
Federal share) to the Medicaid program. As of February 29, 2008, Weiss had Medicaid
credit balances with ages that ranged from 9 to 1,199 days, as the following table
summarizes.

                                 Ages of Overpayments


                           Number of            Medicaid
        DAYS               Accounts           Overpayments           Federal Share
       1-60 days                6                 $171,005               $85,503
      61-90 days                0                        0                      0
      91-180 days               3                    5,257                  2,628
     181-365 days               6                    4,481                  2,240
    366 -1,199 days            14                    7,627                  3,814
  TOTALS                       29                 $188,370               $94,185

Weiss acknowledged that the overpayments occurred and that it did not adhere to its
policy and procedures for resolving credit balances on a daily basis.

We verified that Weiss refunded 27 of the 29 overpayments to the State agency as of
July 30, 2008.




                                             3

RECOMMENDATIONS

We recommend that the State agency:

   •	   refund to the Federal Government the $94,185 paid to Weiss for Medicaid
        overpayments; and

   •	   work with Weiss to strengthen its procedures to ensure that credit balances are
        reviewed and overpayments are returned to the Medicaid program.

STATE AGENCY COMMENTS

In written comments to our draft report, the State agency indicated that it has adjusted 26
of the 29 claims related to the overpayments and will work with Weiss to finalize the
remaining 3 adjustments and strengthen its procedures to ensure that credit balances are
reviewed and overpayments are returned to the Medicaid program. The State agency’s
comments are included in their entirety as the Appendix.




                                             4

APPENDIX
                                                                                                         APPENDIX
                    n,WIUtS ()~"AU\\Uli or



fH                  Healthcarc and
                    Family Servk-es
                                                                                      Rod R. Blagojevich, Governor
                                                                                      Barry S. Maram, Director

201 South Grand Avenue East                                                           Telephone: (217) 782-3953
Springfield, Illinois 62763-0002                                                      TI: (800) 526-5812



November 26, 2008


Depaitment of Health and Human Services
Offce of Audít Servíces
   Attn: Marc Gustafson, Regional Inspector General for Audit Services
233 North Michigan Avenue, Suite 1360
Chicago, Ilinois 60601-5502
Re: Draft Audit Report No. A-05-08-00049

Dear Mr. Gustafson:

Thai1k you for providing an opportunity to comment on your draft audit report entitled "Review of
Medícaid Credit Balances at Weiss Hospital as of Februar 29,2008." We appreciate the work
performed by the Office of Inspector General auditors.

As stated in the draft report, Weiss has submitted adjustments for the Medicaid credit balaiices for the
accounts identified in the report.
The Department of  Healthcare and Family Services (HFS) has reviewed the sample detail provided by the
reviewers and has confirmed the adjustments to recover the oveipayments to the provider were processed
by the Bureau of Comprehensive Health Services. These adjustments resulted in offsets to tùture
payments to Weiss.
These adjustments were also traced through the Medicaid Management Information Systems data
warehouse to federal claims submitted during subsequent quarers. As a result of                 these provider
adjustments, HFS has adjusted 26 of                 the 29 claims related to the oveipayments, thereby reducing the
federal claim (Title XIX and XXI) by $93,545 of the $94,185 identified in the report.
HFS wil work with Weiss Hospital to finalize the remairung thee adjustments and strengthen its
procedures to ensure that credit balances are reviewed and oveipayments are retured to the Medicaid
program.
If you have any questions or comments about our response to the audit, please contact Peggy
Edwards, External Audit Liaison, at (217) 785-9764 or through e-mail at
Eeg.,y. Ed ~ym:ÇlSrÆ.iJipslÍs.,gQY.


Sincerely,

.-1~~~~
Michael Moss, Administrator
Division of Finance




E.mail: hfswebmasterêilinois.gov                                                        Internet: http://W..hfs.illlinois.gov/
